                      Closeout of M91020014




            I,and another investigator, actin-
Both of these individuals were accused of using information they
acquired as reviewers to guide their own experiments, and also of
obstructing the review of the complainant's work. Although the
complainant initially promised to provide specific information as
to what materials of his were used illegitimately and how, and
where the results were published, he eventually refused to do so.
His reason was that he was afraid of getting involved in a messy
misconduct case, which might involve retaliation against him as a
whistleblower. Without his information, this case would require
a broad and undirected search that is beyond the resources of
OIG.
Another consideration in this case is that the subject is a -
foreign investigator working in a foreign country, who has never
applied for NSF funding. In view of this, there is little that
NSF could do either by way of investigating the case or by way of
imposing a sanction if misconduct-werefound.
For these reasons, the case is being closed without further
action.




November 13, 1991
                           m h    't   61s   [ih+/q1
